December 30, 2010

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2010 Financial Statements Audit –
         Eagan Information Technology and Accounting Service Center
         (Report Number FT-AR-11-005)

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service Eagan, MN, Information Technology and
Accounting Service Center (IT/ASC) for the fiscal year (FY) ended September 30, 2010
(Project Number 10BM001FT000). We conducted this audit in support of the
independent public accounting (IPA) firm’s overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.1 This audit addressed
financial risk. See Appendix A for additional information about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year (CY) 2002 to strengthen public confidence in the
accuracy and reliability of financial reporting. Section 404 of SOX requires management
to state its responsibility for establishing and maintaining an adequate internal control
structure and make an assertion on the effectiveness of the internal control structure
over financial reporting. The Postal Accountability and Enhancement Act of 2006
requires the Postal Service to comply with Section 404 of the SOX Act of 2002
beginning in FY 2010. The Board of Governors contracted with the IPA to express an
opinion on the Postal Service’s financial statements, and beginning in FY 2010, that
responsibility was expanded to include an opinion on the Postal Service’s internal
control over financial reporting.

Conclusion

During our audit of the Eagan IT/ASC we noted:

        Financial accounting policies and procedures of the Postal Service provide for an
         adequate internal control structure2 and comply with accounting principles
         generally accepted in the U.S.

1
  The IPA maintains overall responsibility for testing and reviewing significant Eagan IT/ASC accounts and processes.
The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure adequate
coverage.
2
  To ensure key controls are properly designed and operationally effective.
Fiscal Year 2010 Financial Statements Audit –                                                                    FT-AR-11-005
 Eagan Information Technology and Accounting Service Center



        Accounting transactions at the Eagan IT/ASC impacting the general ledger
         account balances for assets, liabilities, equity, income, and expenses of the
         Postal Service are fairly stated in accordance with accounting principles
         generally accepted in the U.S.

        General ledger account balances conform with the general classification of
         accounts of the Postal Service on a basis consistent with that of the previous
         year.

        The Postal Service is in compliance with laws and regulations that have a direct
         and material effect on the financial statements taken as a whole.

We did not propose any adjustments, but we did identify an issue regarding territorial
cost-of-living that was communicated to management through an interim report.3 This
item was not material to the financial statements and did not affect the overall adequacy
of internal controls. Also, throughout the year, we reviewed internal controls over
financial reporting and identified control deficiencies4 regarding payment certification
and payroll. Because these controls are considered key,5 any error could impact the
IPA’s opinion on internal controls over financial reporting. Therefore, we brought them to
management’s attention at the time of discovery to assist them with their responsibility
for establishing and maintaining an adequate internal control structure over financial
reporting. The IPA identified additional information system control deficiencies affecting
the Eagan IT/ASC that were not in the scope of our audit and are not reported here,
including monitoring controls, missing or incomplete documentation, no evidence of
review, and access to systems not timely being removed. The IPA informed
management of these issues on November 2, 2010.

Payment Certification

The Postal Service processed payments certified by an officer without a valid
signature/designation card on file. Specifically, personnel inadvertently omitted an
employee from the certifying officer list sent from St. Louis to the Eagan Disbursing
Branch, and Eagan Disbursing Branch personnel correctly revoked the person’s
authority. However, disbursing personnel continued to process payments with the
employee’s certification. This occurred because disbursing branch personnel did not
always verify the certifying officer was on the authorized certifying officer list6 before
releasing payments. Postal Service policy7 requires disbursing officers to examine
Postal Service (PS) Forms 1865, Voucher and Schedule of Payments, for proper
3
  Territorial Cost-of-Living Allowance (Report Number FT-AR-10-012, dated August 16, 2010).
4
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct misstatements on a timely
basis.
5
  A key control is a control that, if it fails, there is at least a reasonable likelihood that a material error in the financial
statement would not be prevented or detected on a timely basis.
6
  The Certifying Officer List is generated by various ASC managers identifying employees who have the authority to
certify disbursement of funds for the Postal Service.
7
  Handbook F-19, Accountability of Disbursing Officers, Section 223, dated September 1991.


                                                               2
Fiscal Year 2010 Financial Statements Audit –                                                        FT-AR-11-005
 Eagan Information Technology and Accounting Service Center


completion, correct certification, and accurate computation. From June 17 through
July 20, 2010, personnel received PS Forms 1865 from the St. Louis ASC totaling
$148.9 million. Although the total amount and number of checks released were accurate
in this case, when employees do not validate certifying officials, there is a risk of
improper payment.

We notified management of the error and they immediately updated the certifying officer
list. In addition, they implemented additional controls to prevent future improper
certification of payments. We previously reported this issue and management stated
they would confirm deletions prior to revoking signature/designation cards and compare
certifying official signatures on payment vouchers to those on signature/designation
cards8 for verification. We will continue to monitor this issue as part of our ongoing
financial statement audit work. See Appendix B for calculation of other impact.

Management’s Comments

Management agreed with the finding and the other impact amount but disagreed with
the categorization of the other impact as “Disbursements at Risk.” They stated it may
lead readers to misinterpret the risk relative to the payments involved. Furthermore,
although management agreed with the importance of the certifying officer validation,
they emphasized that there are several other compensating controls in place that
greatly reduce the risk of improper payments. Management immediately updated the
certifying officer list and implemented additional controls on July 21, 2010. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

Although the report does not contain any recommendations, we consider management’s
comments responsive to the finding. Regarding the categorization of other impact, OIG
policy is to consider disbursements made without following proper controls and
processes as Disbursements at Risk. Although we acknowledge other compensating
controls are in place, this control is considered key for financial reporting purposes and
any error could impact the IPA’s opinion on internal controls over financial reporting.
Therefore, we continue to believe the categorization is accurate.

Payroll

The Time and Attendance System Close Out Report was not accurate for Postal
Service pay periods 15 through 17 for calendar year 2010. This occurred because there
was an error in the formula used to determine the percentage of time records closed
and processed. Management uses this report to review all non-rural employee time
records to ensure that 99.9 percent of payroll expenses and liabilities are properly
stated. Without an accurate threshold calculation, management may inaccurately
conclude that a sufficient number of employee time records have been processed. We


8
    Internal Controls over Receipt and Disbursing Activities (Report Number FT-AR-07-006, dated December 21, 2006).


                                                          3
Fiscal Year 2010 Financial Statements Audit –                                                   FT-AR-11-005
 Eagan Information Technology and Accounting Service Center


notified management of the error and they corrected the formula. We will continue to
monitor this issue as part of our ongoing financial statement audit work.

Management’s Comments

For payroll, management agreed in part with the finding. They agreed that the Time and
Attendance System Close Out report did have an error and that it was corrected in pay
period 17, calendar year 2010. However, they disagreed that the error would have
caused an inaccurate conclusion since the close out report also contains other totals
that would identify the number of failed records. In addition, management stated the
finding failed to acknowledge that the processed records and the reviewed and
approved reports for pay periods 15 through 17, calendar year 2010, exceeded the
established threshold. Management implemented the error correction prior to pay period
18 of calendar year 2010.

Evaluation of Management’s Comments

Although the report does not contain any recommendations, we consider management’s
comments responsive to the finding. We acknowledge there are other totals that would
identify the number of failed records and that the processed records and the reviewed
and approved reports exceeded established thresholds for the stated pay periods.
However, this control is considered key for financial reporting purposes and any error
could impact the IPA’s opinion on internal controls over financial reporting. Therefore,
we continue to believe the accuracy of this report is critical to ensuring the correct
percentage of time records closed and processed.

Progress on Prior Years’ Recommendations

In FY 2005, we reported9 that the Postal Service did not always follow Internal Revenue
Service (IRS) employment tax regulations for reporting salary overpayments. We
recommended that management revise policy to comply with IRS regulations, establish
accounts receivable for gross amounts due, and inform employees of tax implications.
In January 2010, management generated account receivable invoices for gross
amounts due for prior year salary overpayments and notified employees of the IRS tax
regulations. By December 31, 2010, management will implement a revised process for
current year salary overpayments. Specifically, they will generate an account receivable
invoice for the net amount due and, if the receivable is not repaid by December 31 of
the current calendar year, management will consider the outstanding amount taxable
income and establish an additional receivable for the applicable taxes due. If
management processes these changes as planned, it will satisfy our
recommendations.10 We will continue to monitor this area as part of our annual financial
statement audit work.


9
  Reporting Salary Overpayments to the Internal Revenue Service (Report Number FT-MA-05-002, dated
September 28, 2005).
10
   We did not classify the recommendations as significant in our audit report.


                                                      4
Fiscal Year 2010 Financial Statements Audit –                               FT-AR-11-005
 Eagan Information Technology and Accounting Service Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Stephen J. Nickerson
    Jean D. Parris
    Dean R. Rodman
    Steven R. Phelps
    Julie S. Moore




                                                  5
Fiscal Year 2010 Financial Statements Audit –                                                        FT-AR-11-005
 Eagan Information Technology and Accounting Service Center


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Eagan IT/ASC is one of three ASCs Postal Service-wide.11 The Eagan IT/ASC
functions as a large, centralized accounting and disbursement center and its employees
are responsible for processing payroll, maintaining the general ledger, reconciling
financial data, and maintaining cash and receivable accounts.

We will issue separate financial statement audit reports for headquarters and the
St. Louis and San Mateo IT/ASCs. Further, in addition to the overall opinions on the
Postal Service’s financial statements and internal control over financial reporting, the
Board of Governors’ IPA issued a separate report on its consideration of the Postal
Service’s internal controls and its test of compliance with certain provisions of laws,
regulations, contracts, and other matters. The purpose of that report was to describe the
scope of testing of internal control over financial reporting and compliance and the
results of that testing, not to provide an opinion on internal control over financial
reporting or on compliance.12 The OIG will also issue a separate report for the audit of
the FY 2010 information system controls at the Eagan, San Mateo, and St. Louis
IT/ASCs; and the Raleigh Information Technology Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:13

        Financial accounting policies and procedures of the Postal Service provide for an
         adequate internal control structure14 and comply with accounting principles
         generally accepted in the U.S.

        Accounting transactions at the Eagan IT/ASC that impact the general ledger
         account balances for assets, liabilities, equity, income, and expenses of the
         Postal Service are fairly stated in accordance with accounting principles
         generally accepted in the U.S.

        General ledger account balances conform to the general classification of
         accounts of the Postal Service on a basis consistent with that of the previous
         year.

        The Postal Service complies with laws and regulations that have a direct and
         material effect on the financial statements taken as a whole.


11
   Other IT/ASCs are located in St. Louis, MO and San Mateo, CA.
12
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three
IT/ASCs, field sites, and the Raleigh, NC Information Technology Service Center.
13
   The IPA maintains overall responsibility for testing and reviewing significant Eagan IT/ASC accounts and
processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
14
   To ensure key controls are properly designed and operationally effective.


                                                         6
Fiscal Year 2010 Financial Statements Audit –                                         FT-AR-11-005
 Eagan Information Technology and Accounting Service Center


As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from November 2009 through January 2011
in accordance with the standards of the Public Company Accounting Oversight Board
(United States) (PCAOB) and the standards applicable to financial audits contained in
the Government Auditing Standards issued by the comptroller general of the U.S. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit. An audit also requires a sufficient understanding of internal
controls to plan the audit and determine the nature, timing, and extent of audit
procedures to be performed. We believe the evidence obtained provides a reasonable
basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatements (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with PCAOB and
Government Auditing Standards may not detect a material misstatement. However,
external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
discussed our conclusions with management officials on November 28, 2010, and
included their comments where appropriate.

We relied on computer-generated data from a number of Postal Service financial
systems, including the following.

      Accounting Enterprise Data                            Commercial Check Tracking
       Warehouse Reporting                                    System
      National Accounting Oracle                            Payroll Systems
       Financial Application                                 SAP Human Capital Management
      Time and Attendance Systems                           Employee Personnel Action History
      Accounts Receivable-Oracle                            PostalEASE
      Standard Accounting For Retail T-                     Eagan Accounts Payable System
       Recs (Chesapeake Reconciliation)                      National Meter Accounting Tracking
      Returned and Check Management                          System
       System                                                Payment Switch

To assess the reliability of these systems’ data, we performed specific internal control
and transactions tests, including tracing selected financial information to supporting
source records. For example, we traced payroll system reports to original Notification of
Personnel Action documentation. We determined that the data were sufficiently reliable
for the purposes of this report.




                                                  7
   Fiscal Year 2010 Financial Statements Audit –                                        FT-AR-11-005
    Eagan Information Technology and Accounting Service Center


   PRIOR AUDIT COVERAGE

   We issued the following reports addressing selected financial activities and accounting
   records at the Eagan IT/ASC.

                                 Report            Final Report
     Report Title                Number                Date                 Report Results
Fiscal Year 2009 Postal       FT-AR-10-004          11/20/2009    We did not report any adjustments
Service Financial                                                 or significant issues and did not
Statements Audit –                                                make any recommendations.
Eagan Information                                                 Management took corrective action
Technology and                                                    during our audit to document
Accounting Service                                                evidence when evaluating payroll
Center                                                            processing.
Fiscal Year 2008 Postal       FT-AR-09-002          11/20/2008    We did not report any adjustments
Service Financial                                                 or significant issues and did not
Statements Audit –                                                make any recommendations.
Eagan Information                                                 Management took corrective action
Technology and                                                    during our audit regarding Federal
Accounting Service                                                Employees’ Retirement System
Center                                                            Contribution Rates.
Internal Controls over        FT-AR-07-006          12/21/2006    Personnel processed payments
Receipt and Disbursing                                            certified by an officer without a valid
Activities                                                        signature/designation card on file
                                                                  and employees commingled funds
                                                                  with personal accounts.
                                                                  Management agreed with our
                                                                  recommendations and enhanced
                                                                  controls over disbursing activities
                                                                  and, during our audit, discontinued
                                                                  depositing cash into employee
                                                                  personal accounts to convert to
                                                                  checks.
Management Advisory –         FT-MA-05-002           9/28/2005    See the “Progress on Prior Years’
Reporting Salary                                                  Recommendations” section of this
Overpayments to the                                               report.
Internal Revenue Service




                                                     8
Fiscal Year 2010 Financial Statements Audit –                                                      FT-AR-11-005
 Eagan Information Technology and Accounting Service Center


                                      APPENDIX B: OTHER IMPACT

We calculated total disbursements during the time where an employee did not have a
valid signature/designation card on file but continued to certify payments as follows:

                                           Disbursements at Risk15

                           Date of PS Form 1865                Disbursement Amount 
                              June 17, 2010                                 $2,289,048 
                              June 18, 2010                                  9,416,945 
                              June 21, 2010                                 56,074,161 
                              June 23, 2010                                  5,223,534 
                              June 24, 2010                                  3,249,066 
                              June 25, 2010                                  2,578,648 
                              June 28, 2010                                  5,823,640 
                              June 29, 2010                                  6,041,130 
                              June 30, 2010                                  3,345,616 
                                July 1, 2010                                 5,161,784 
                                July 2, 2010                                 2,373,990 
                                July 6, 2010                                 6,944,368 
                                July 7, 2010                                 3,566,689 
                                July 8, 2010                                 4,346,645 
                                July 9, 2010                                 3,294,649 
                               July 12, 2010                                 3,082,954 
                               July 14, 2010                                 6,922,868 
                               July 15, 2010                                 3,259,409 
                               July 16, 2010                                11,166,020 
                               July 19, 2010                                 1,946,564 
                               July 20, 2010                                 2,832,692 
                               Total Impact                              $148,940,420 




15
     Disbursements made without following proper Postal Service internal controls and processes.


                                                           9
Fiscal Year 2010 Financial Statements Audit –                 FT-AR-11-005
 Eagan Information Technology and Accounting Service Center



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                 10
Fiscal Year 2010 Financial Statements Audit –                 FT-AR-11-005
 Eagan Information Technology and Accounting Service Center




                                                 11
